KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

October 14, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Charles Victor Thompson. v. Bobby Lumpkin, Director, Texas
Department of Criminal Justice, Institutional Division, No. 20-5941
(Capital Case)

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4 and the Court’s Order of March 19,
2020, Respondent Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Institutional Division, respectfully moves for an extension of the time for
filing the response to the petition for a writ of certiorari in this matter.
Petitioner filed his petition for a writ of certiorari on October 1, 2020. It was
docketed on October 7, creating a deadline for Respondent’s response of November
6, 2020. Respondent requests a 30-day extension of that deadline, creating a new
filing date of December 7, 2020.1
My staff reached out to counsel for Petitioner via email to ask for his position on
this motion. Petitioner’s counsel advised that the requested extension is unopposed.
The extension is necessary because lead counsel for Respondent faces numerous
briefing and argument obligations since Petitioner filed the petition for certiorari.
1

Thirty days from November 6 is December 6, which is a Sunday; thus, the operative
deadline would be Monday, November 7.
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Page 2
Lead counsel’s caseload has significantly increased due to COVID-19-related
litigation involving the State of Texas and its officials and, more recently, multiple
emergency election-law matters that have required expedited briefing and argument.
The press of business from numerous, complex matters with deadlines near the
current deadline require significant time and attention from the undersigned counsel
and other counsel assisting with this matter:
• In re Brown, No. 19-0877 (Tex.) (oral argument October 29, 2020)
• Planned Parenthood Center for Choice, et al. v. Abbott, No. 20-305 (U.S.)
(response to petition for writ of certiorari due November 9, 2020)
• California v. Texas, No. 18-840 (U.S.) (oral argument November 10, 2020)
• City of Austin v. Paxton, No. 19-1441 (U.S.) (response to petition for writ of
certiorari due December 1, 2020)
• Texas Entertainment Association v. Hegar, No. 20-50262 (5th Cir.) (reply brief
filed October 13, 2020)
• Hegar v. Texas BLC, Inc., No. 01-18-00554-CV (Tex. App.) (response to
motion for rehearing due October 20, 2020)
• Sirius XM Radio Inc. v. Hegar, No. 20-0462 (Tex.) (response to petition for
review due November 18, 2020)
In addition, counsel will be out of the office for the Thanksgiving holiday.
For the foregoing reasons, Respondent respectfully requests a 30-day extension
of the deadline to file the response to the petition for a writ of certiorari, creating a
new deadline of December 7, 2020.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc: Jonathan Landers (via e-mail)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

